TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                       Administration of the First-Time
                    Homebuyer Credit Indicates a Need for
                  Improved Controls Over Refundable Credits



                                          March 31, 2011

                              Reference Number: 2011-41-035




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


ADMINISTRATION OF THE FIRST-TIME                     implementation of filters to identify questionable
HOMEBUYER CREDIT INDICATES A                         claims for the Credit before they are processed.
NEED FOR IMPROVED CONTROLS                           Additionally, legislation granted the IRS math
OVER REFUNDABLE CREDITS                              error authority to deny Homebuyer Credits if
                                                     proper documentation was not provided by the
                                                     taxpayer.
Highlights                                           However, the implementation of the filters and
                                                     passage of this legislation occurred after many
Final Report issued on March 31, 2011                Homebuyer Credits had already been issued,
                                                     including fraudulent and erroneous Credits
Highlights of Reference Number: 2011-41-035          totaling millions of dollars.
to the Internal Revenue Service Commissioner
for the Wage and Investment Division.                Control weaknesses identified in the two prior
                                                     reports, as well as those identified in this report,
IMPACT ON TAXPAYERS                                  allowed potentially erroneous refunds of more
                                                     than $513 million to be received by taxpayers
Homebuyers who purchased a home in 2008,             who most likely did not qualify for the
2009, or 2010 were able to take advantage of         Homebuyer Credit. Furthermore, during this
the First-Time Homebuyer Credit (Homebuyer           final phase of the audit, TIGTA identified
Credit). The Homebuyer Credit allowed eligible       additional IRS employees who made
taxpayers to claim up to an $8,000 refundable        questionable claims for the Credit.
credit on their tax return. Fraudulent and
erroneous Homebuyer Credits totaling millions        WHAT TIGTA RECOMMENDED
of dollars in refunds were issued, revealing a
need for not only stronger controls over claims      TIGTA recommended that the IRS require
for the Homebuyer Credit, but also for               taxpayers to provide documentation to support
strengthening controls over all refundable           eligibility for all refundable tax credits and to
credits.                                             seek legislation that would provide the IRS with
                                                     math error authority to deny refundable credits
WHY TIGTA DID THE AUDIT                              when supporting documentation is not provided.
The President of the United States has called on     To the extent feasible, the IRS should also
Federal agencies to ensure that recovery funds       ensure that the processing of refundable credits
are used for authorized purposes and that every      provided for in late legislation be initiated only
step is taken to prevent fraud, waste, error, and    after sufficient controls can be implemented to
abuse. The Internal Revenue Service (IRS)            protect the Government from erroneous and
faces significant challenges to ensure that the      fraudulent claims for these credits. In addition,
recovery funds it administers are used for           the IRS should take additional steps to recover
authorized purposes.                                 erroneous credits discussed in this report.
This report is the culmination of an audit that      IRS management partially agreed with one of
was reported in three separate phases as our         our recommendations and agreed with the
audit progressed, resulting in two prior interim     others. However, even though they agreed,
reports. The overall objective of the review was     TIGTA believes the IRS management needs to
to determine whether the IRS had controls in         take a much more timely and proactive
place that effectively identified erroneous claims   approach to prevent fraudulent claims for
for the Homebuyer Credit.                            refundable credits than they agreed to take in
                                                     their response.
WHAT TIGTA FOUND
The IRS has taken a number of positive steps to
strengthen controls and help prevent
inappropriate Homebuyer Credits from being
issued. Primary among these controls was the
                                        DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220
TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 31, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Administration of the First-Time Homebuyer
                                 Credit Indicates a Need for Improved Controls Over Refundable
                                 Credits (Audit # 201040141)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has controls in place that effectively identify erroneous claims for the First-Time
 Homebuyer Credit. The audit addresses the IRS major management challenges of Implementing
 Health Care and Other Tax Law Changes, and Erroneous and Improper Payments and Credits. It
 also presents selected information related to the IRS implementation of Section 1006 of the
 American Recovery and Reinvestment Act of 2009 (Recovery Act).1 This audit was not initially
 part of our annual audit plan.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration (TIGTA) through September 30, 2013, to be used in oversight activities of IRS
 programs. This audit was conducted using Recovery Act funds.
 IRS management partially agreed with one of the recommendations in our report and agreed with
 the others. However, in its agreement to our recommendations to require supporting
 documentation for refundable credits, and to postpone initiation of processing for refundable
 credits until sufficient controls can be implemented to protect the Government from erroneous
 and fraudulent claims, the IRS indicated that it is already doing those things we recommended.


 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                 Administration of the First-Time Homebuyer Credit
                     Indicates a Need for Improved Controls
                              Over Refundable Credits


In our opinion, the IRS needs to take a much more timely and proactive approach to prevent
fraudulent claims for refundable credits. These credits are targets for fraud. The IRS should not
wait to take action, as it did with the Homebuyer Credit, until after fraudulent claims have been
processed to require documentation and seek math error authority to deny credits when
supporting documentation is not provided. The TIGTA pointed out the vulnerability of the
Homebuyer Credit to fraudulent claims very soon after the passage of the legislation and
recommended the IRS require documentation. The IRS initially disagreed and did not take the
preventative actions the TIGTA recommended. Because it initially had the legal authority to
deny erroneous claims during processing only for mathematical or certain unallowable
conditions, the only avenue available for preventing payment of otherwise erroneous claims was
through the audit process and use of deficiency procedures that require use of the IRS’s limited
Examination resources. It was not until after the likely existence of fraud was reported by the
TIGTA and Congress had provided additional specific legal authority (math error authority) that
the IRS began requiring documentation. However, by this time, millions of dollars in
questionable claims for the Homebuyer Credit had already been processed. Based on this
experience, we believe the IRS should implement an equivalent process for all refundable
credits.
In reference to the 12 separate measurable benefits on tax administration included in our report,
the IRS believes that both the population and estimated revenue protection are overstated for the
following issues:
 •   Taxpayers claiming Homebuyer Credits for homes to be purchased in the future.
 •   Taxpayers showing post office boxes as the address of their new homes.
 •   Taxpayers not showing a change in address from their old home to their new home.
 •   Taxpayers showing no purchase date on their claim.
The IRS stated that additional research of third-party data may show that the taxpayers did
actually qualify for Homebuyer Credits. However, to verify our projections, we performed
third-party research on statistically valid samples to ensure our projections were accurate.
Furthermore, our population and revenue estimates regarding claims with a purchase date in the
future were based on actual case work conducted by the IRS. Our population consisted only of
those cases for which the IRS issued notices to taxpayers. Using a statistically valid sample of
cases worked by the IRS, we analyzed the IRS’s rate of disallowance of Homebuyer Credits in
the sample and projected it to the population of cases receiving a notice. We found that a high
percentage (69 percent) of these Homebuyer Credits was disallowed, and we projected that to the
population.
Based on our analysis and the additional work conducted to verify the outcomes, we continue to
believe that all measurable benefits included in this report are accurately and fairly presented.


                                                                                                    2
                Administration of the First-Time Homebuyer Credit
                    Indicates a Need for Improved Controls
                             Over Refundable Credits


Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                             3
                         Administration of the First-Time Homebuyer Credit
                             Indicates a Need for Improved Controls
                                      Over Refundable Credits




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Appropriate Controls Should Be Established Before
          Refundable Credits Are Issued ..................................................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 6

                    Recommendation 3: .................................................................. Page 7

          Individuals Erroneously Received Homebuyer Credits
          for Homes Purchased From a Related Person............................................... Page 7
                    Recommendation 4:........................................................ Page 8

          Taxpayers Received Homebuyer Credits Without
          Providing Valid Addresses of Homes They Reported
          Purchasing ..................................................................................................... Page 8
                    Recommendation 5:........................................................ Page 10

          A Filter Designed to Identify Taxpayers Claiming
          Homebuyer Credits but Whose Addresses Did Not
          Change Was Not Programmed Correctly ..................................................... Page 10
                    Recommendation 6:........................................................ Page 10

          Taxpayers Received Homebuyer Credits Without
          Providing Valid Acquisition Dates on Form 5405 ....................................... Page 11
                    Recommendation 7:........................................................ Page 11

          Additional Internal Revenue Service Employees Made
          Questionable Claims for the Homebuyer Credit ........................................... Page 12
          Action Was Taken to Ensure That Taxpayers Who Were
          Unaware of the Changes to the Homebuyer Credit
          Received the Full Credit to Which They Were Entitled ............................... Page 13
                    Administration of the First-Time Homebuyer Credit
                        Indicates a Need for Improved Controls
                                 Over Refundable Credits



Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
     Appendix II – Major Contributors to This Report ........................................ Page 24
     Appendix III – Report Distribution List ....................................................... Page 25
     Appendix IV – Outcome Measures............................................................... Page 26
     Appendix V – Methodology to Identify Individuals Erroneously
     Receiving Homebuyer Credits for Homes Purchased From
     Related Persons ............................................................................................. Page 35
     Appendix VI – Management’s Response to the Draft Report ...................... Page 37
        Administration of the First-Time Homebuyer Credit
            Indicates a Need for Improved Controls
                     Over Refundable Credits




                      Abbreviations

HERA            Housing and Economic Recovery Act of 2008
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
WHBAA           Worker, Homeownership, and Business Assistance Act of 2009
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits




                                             Background

Section 1006 of the American Recovery and Reinvestment Act of 2009 (Recovery Act)1 revised
and extended the First-Time Homebuyer Credit (Homebuyer Credit) provided for in the Housing
and Economic Recovery Act of 2008 (HERA).2
The HERA allowed taxpayers who purchased a
principal residence after April 8, 2008, and before                        In Processing Years 2009 and
July 1, 2009, to claim a credit equal to 10 percent of the                 2010, the IRS reported issuing
purchase price of the home, limited to $7,500. The                             Homebuyer Credits of
                                                                           $12.3 billion and $13.7 billion,
Homebuyer Credit, as expressed in this Act, served as                               respectively.
an interest-free loan to be paid back over a 15-year
period beginning 2 years after the Credit was claimed.
Section 1006 of the Recovery Act extended the Homebuyer Credit to include purchases made on
or after January 1, 2009, and before December 1, 2009; increased the maximum Credit to
$8,000; and eliminated the repayment requirements as long as the taxpayer retains the residence
for at least 36 months. Taxpayers qualifying for the revised Homebuyer Credit may claim the
$8,000 Credit on either their Tax Year 2008 or 2009 individual income tax returns. Taxpayers
may have been confused regarding which version of the Credit they qualified for, and
unscrupulous individuals made fraudulent claims for the refundable Credit.3
The Worker, Homeownership, and Business Assistance Act of 2009 (WHBAA),4 signed into law
on November 6, 2009, added to the situation by extending and expanding the Homebuyer Credit
allowed by the previous Acts.5 The WHBAA also added documentation requirements for
claiming the Credit. The Treasury Inspector General for Tax Administration (TIGTA) reviewed
the Internal Revenue Service’s (IRS) implementation of the WHBAA as part of our annual audit
of the IRS’s filing season.
This review focused on the IRS’s controls to identify and prevent erroneous claims for the
Homebuyer Credit claimed on original U.S. Individual Income Tax Returns (Form 1040). This


1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Pub. L. No. 110-289.
3
  A refundable credit can reduce a taxpayer’s liability to zero, and any credit amount over the tax liability can be
refunded to the taxpayer. In contrast, a nonrefundable credit can only reduce the tax liability to zero.
4
  Pub. L. No. 111-92, 123 Stat 2984 (2009).
5
  Under the new law, an eligible taxpayer must buy, or enter into a binding contract to buy, a principal residence on
or before April 30, 2010, and close on the home by June 30, 2010. The law maintained that the taxpayer would not
be required to repay the Credit and kept the maximum amount at $8,000. For qualifying purchases in 2010,
taxpayers have the option of claiming the Credit on either their 2009 or 2010 tax returns.
                                                                                                              Page 1
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



report is the culmination of an audit that was developed and reported in three separate phases,
resulting in two prior interim reports.
The President of the United States has stated that every taxpayer dollar spent on the economic
recovery must be subject to unprecedented levels of transparency and accountability. The
President has called on Federal agencies to ensure that recovery funds are used for authorized
purposes and every step is taken to prevent instances of fraud, waste, error, and abuse.
Congress estimated that $13.6 billion would be paid to taxpayers for the Homebuyer Credit
provided for in the HERA. The Joint Committee on Taxation estimated that more than
$4.3 billion more would be paid to first-time homebuyers in Fiscal Years 2009 and 2010 as a
result of the Recovery Act. In Processing Years 2009 and 2010, the IRS reported that it issued
Homebuyer Credits of $12.3 billion and $13.7 billion, respectively.
This review was performed onsite at the IRS Campus6 in Ogden, Utah. It included a review of
individual income tax returns filed nationwide, as well as analysis of data provided by the IRS
Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission Processing
function offices in Lanham, Maryland, and Cincinnati, Ohio; and the Submission Processing
Sites in Fresno, California; Austin, Texas; and Ogden, Utah. This report is the end result of audit
work completed by November 2010 and from which two interim reports were already issued.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




6
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits




                                  Results of Review

Appropriate Controls Should Be Established Before Refundable
Credits Are Issued
In our first two interim reports we discussed three key controls that were not in place before
claims for the Homebuyer Credit were processed. Specifically,
   •   Documentation was not required to substantiate claims for the Homebuyer Credit.
   •   Filters to identify erroneous claims for the Homebuyer Credit were not implemented until
       late into the filing season, and the filters were missing some components.
   •   Information provided on First-Time Homebuyer Credit and Repayment of the Credit
       (Form 5405) was not entered into IRS computers from paper returns, and date of
       purchase information from paper and electronic returns was not immediately utilized to
       verify eligibility for the Credit.
In our first interim report, we discussed that despite the TIGTA’s recommendation to do so, the
IRS did not require taxpayers to attach documentation to tax returns to verify eligibility before
Homebuyer Credits were allowed. In addition, the IRS did not ensure that information on each
line of the Form 5405 was transcribed for paper returns and that the information from all
Forms 5405 was used to validate claims for the Homebuyer Credit.
IRS management initially stated that a requirement to supply documentation during processing of
returns would be burdensome for the taxpayers and the IRS. Nonetheless, the burden of
providing documentation to substantiate such a credit is no greater than the burden placed on
individuals receiving payments from other Government agencies and on the agencies providing
those payments. For example, to receive food stamps, individuals are required to provide the
following:
   •   Identification such as a driver’s license, State identification, birth certificate, or alien
       card.
   •   Proof of income.
   •   Proof of amounts spent on child care.
   •   Rent receipts or proof of mortgage payments.




                                                                                                 Page 3
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



   •   Records of utility costs.
   •   Medical bills for certain household members.
Furthermore, the IRS stated that it did not have math error authority to disallow the Homebuyer
Credit during processing even if it did ask for documentation and none was provided. The IRS
initially took no steps to obtain this math error authority. After the issuance of the TIGTA’s first
interim report and congressional hearings on the subject, Congress passed legislation which
required documentation for the Homebuyer Credit and provided the IRS with math error
authority to disallow the Credit if the documentation was not provided. The IRS required
taxpayers claiming the Credit after November 6, 2009, to attach a copy of their U.S. Department
of Housing and Urban Development Settlement Statement (Form HUD-1) to support their claim.
Because of the extensive requirements for programming and the late passage of the first bill
containing the Homebuyer Credit, IRS management did not initially request or implement the
transcription of the Form 5405. Moreover, at the beginning of the 2009 Filing Season, the IRS
had not developed and implemented examination filters to identify potentially erroneous claims
for the Homebuyer Credit. We believe this may have occurred for two reasons. First, the
original legislation was passed in July 2008, giving the IRS only 6 months to develop, test, and
implement filters before the filing season began. Second, the original legislation required
taxpayers to repay the Homebuyer Credit, so the development of filters was not as urgent as it
would have been with a refundable credit which did not require repayment. The lack of filters
became more significant with the passage of the Recovery Act in February 2009 because it
increased the amount of the Credit and eliminated the repayment requirement. The IRS reported
that as of May 17, 2009, it had initiated the use of computerized filters to identify questionable
claims for the Homebuyer Credit during processing. The IRS further reported that as a result of
implementing these filters, it had initiated pre-refund audits on 190,464 original tax returns
claiming the Homebuyer Credit and had disallowed claims totaling approximately $434 million
as of September 2010.
However, a significant number of erroneous Homebuyer Credits were processed prior to
implementation of the filters and documentation requirements. The erroneous Credits might
have been denied if controls were present. For example, in our two previous interim reports, we
discussed the following erroneous claims for the Homebuyer Credit. The IRS has taken or
agreed to take corrective actions to recover these erroneous Homebuyer Credits.
   •   Taxpayers claimed Homebuyer Credits although they had not made home purchases but
       reportedly would in the future. These taxpayers listed home acquisition dates on their
       Forms 5405 that were subsequent to the dates the claims were processed by the IRS. In
       response to our interim report, the IRS sent notices to taxpayers with future acquisition
       dates and reversed the Homebuyer Credit if the taxpayer failed to provide proof of an
       actual home purchase. We estimate the IRS could potentially recover $97.8 million from
       13,448 taxpayers using future home purchase dates.

                                                                                             Page 4
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



   •   Many taxpayers claiming Homebuyer Credits appeared not to be first-time homebuyers
       based on tax information that indicated they had owned homes within 3 years prior to
       their new home purchases. These taxpayers claimed deductions or tax credits such as
       mortgage interest, real estate taxes, mortgage insurance premiums, Residential Energy
       Credits, or Mortgage Interest Credits on at least one of their prior three tax returns. We
       estimate that the IRS could potentially recover $326 million from 47,576 taxpayers who
       had indications of prior home ownership and filed for Homebuyer Credits before the IRS
       filters were implemented.
   •   Some taxpayers under the age of 18 claimed Homebuyer Credits, but likely did not
       purchase homes because contract law generally exempts minors from being legally bound
       to a contract for such a home purchase. The legislation passed in November 2009 gave
       the IRS authority to disallow any Homebuyer Credits claimed by taxpayers under age 18.
       During the 2010 Filing Season, the IRS disallowed $531,134 in Credits claimed by
       96 taxpayers under age 18.
   •   Prisoners received Homebuyer Credits for homes reportedly purchased while
       incarcerated. We estimate the IRS could potentially recover $7.7 million from
       1,084 prisoners who received Credits despite being incarcerated at the time their homes
       were reported purchased.
   •   Taxpayers claimed Homebuyer Credits for homes for which at least one other taxpayer
       also claimed the Credit and the combined amounts for each address exceeded $8,000.
       We estimate the IRS could potentially recover $11.4 million from 2,587 of these
       taxpayers claiming Credits to which they were not entitled.
   •   Some taxpayers claimed Homebuyer Credits for homes purchased before April 9, 2008,
       the effective date of the HERA legislation. The IRS subsequently initiated controls using
       information on Form 5405 to identify and disallow such claims prior to them being
       refunded. We alerted the IRS and in response the IRS sent notices to 2,751 taxpayers
       who claimed Credits for homes purchased prior to the effective date of the legislation.
       We estimate that the IRS could potentially recover $17.6 million from taxpayers making
       these erroneous claims.
See Appendix IV for details of our estimates.
This final report also discusses other erroneous claims, allowed by the IRS prior to the
implementation of these controls, for which recovery actions need to be taken. Erroneous claims
for refundable credits are not unique to the Homebuyer Credit. The TIGTA recently issued
reports discussing erroneous claims for the Additional Child Tax Credit and the Earned Income
Tax Credit, and it will soon issue another report discussing erroneous claims for the American
Opportunity Credit.


                                                                                           Page 5
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



Recommendations
The IRS Commissioner should:
Recommendation 1: Require taxpayers to provide supporting documentation to verify
eligibility for all refundable tax credits.
       Management’s Response: IRS management agreed that this recommendation is
       appropriate for many refundable credits. The IRS evaluates the administration of each
       refundable credit based on its unique characteristics. In the case of the Homebuyer
       Credit, the IRS determined that a requirement for supporting documentation was
       warranted because the likelihood of fraud was well known and specific legal authority
       was provided by the law. The IRS continually assesses and evaluates compliance risks,
       and where it determines that the benefits of this approach outweigh the compliance
       burden and legal constraints, the IRS will consider using it more broadly.
       Office of Audit Comment: We acknowledge the IRS’s agreement to consider a
       broader use of supporting documentation. However, in our opinion, the IRS needs to
       take a much more timely and proactive approach to prevent fraudulent claims for
       refundable credits. These credits are targets for fraud. The IRS should not wait to take
       action until after fraudulent claims have been processed, as it did with the Homebuyer
       Credit, to require documentation and seek math error authority to deny credits when
       supporting documentation is not provided. The TIGTA advised the IRS of the
       vulnerability of the Homebuyer Credit to fraudulent claims very soon after the passage of
       the legislation and recommended the IRS require documentation. The IRS initially
       disagreed and did not take the preventative actions the TIGTA recommended. Because it
       initially had the legal authority to deny erroneous claims during processing only for
       mathematical or certain unallowable conditions, the only avenue available for preventing
       payment of otherwise erroneous claims was through the audit process and use of
       deficiency procedures that require use of IRS’s limited Examination resources. It was not
       until after the likely existence of fraud was reported by the TIGTA and Congress had
       provided additional specific legal authority (math error authority) that the IRS began
       requiring documentation. However, by this time, millions of dollars in questionable
       claims for the Homebuyer Credit had already been processed. Based on this experience,
       we believe the IRS should implement an equivalent process for all refundable credits.
Recommendation 2: To the extent feasible, ensure that the processing of refundable credits
provided for in late legislation be initiated only after sufficient controls can be implemented to
protect the Government from erroneous and fraudulent claims for these credits.
       Management’s Response: IRS management agreed with this recommendation. To
       the extent feasible, and as done in the past, for late legislation the IRS will initiate
       processing of new or revised refundable credits only after it assesses and balances the risk

                                                                                             Page 6
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



       of erroneous and fraudulent claims against the feasibility and time required to implement
       appropriate controls, while taking into consideration congressional intent and legislation
       effective dates.
       Office of Audit Comment: Again, while we acknowledge the IRS’s agreement to our
       recommendation, we believe it is important that it not address this issue in the same
       manner as it has in the past. Hundreds of thousands of questionable claims for millions
       of dollars in Homebuyer Credits were processed prior to the implementation of
       Examination filters to identify questionable claims. While the IRS did subsequently run
       its filters against these refunded claims for consideration of post-refund examination, it
       will not be able to examine many of these claims because of resource constraints and the
       applicable statute of limitations.

Legislative Recommendation
Recommendation 3: The IRS Commissioner should seek legislation to provide the IRS with
math error authority to deny credits when supporting documentation is not provided for a
refundable credit.
       Management’s Response: IRS management agreed that math error authority is an
       important compliance tool in many cases. In determining the appropriate administration
       of each refundable credit, the IRS will explore with its colleagues at the Department of
       the Treasury Office of Tax Policy whether math error authority is appropriate.
       Office of Audit Comment: The IRS needs to take a much more timely and proactive
       approach to prevent fraudulent claims for refundable credits. These credits are targets for
       fraud. The IRS should not wait until other refundable credits are enacted to explore the
       appropriateness of math error authority to deny credits when supporting documentation is
       not provided.

Individuals Erroneously Received Homebuyer Credits for Homes
Purchased From a Related Person
A home purchased from a related person, such as the taxpayer’s spouse, parent, grandparent,
child, or grandchild, did not qualify the taxpayer for a Homebuyer Credit. Specifically, the
taxpayer could not purchase the home from any ancestors or lineal descendents.
Prior to legislation passed in November 2009, the related-party exclusion did not include persons
related by marriage. Therefore, if a husband and wife purchased a home from the husband’s
parents, the wife was eligible for the Homebuyer Credit. However, the legislation passed in
November disallowed the Homebuyer Credit for a home purchased from a person related to the
taxpayer’s spouse.

                                                                                           Page 7
                 Administration of the First-Time Homebuyer Credit
                     Indicates a Need for Improved Controls
                              Over Refundable Credits



As discussed earlier, the IRS implemented filters in May 2009 to identify various types of
questionable claims for the Homebuyer Credit. However, a filter to identify purchases between
related individuals was not included.
We identified 14,186 individual income tax returns (Tax Year 2008) on which taxpayers claimed
the Homebuyer Credit using the address of a home once owned by someone who had claimed
them or their spouse as a dependent. We performed in-depth analysis on a statistically valid
sample of 375 of these claims and determined that 99 (26 percent) were either for purchases from
a related person or were claimed when no purchase had actually taken place. The methodology
for making our determination is detailed in Appendix V.
We estimate that for Tax Year 2008, at least 3,745 taxpayers received refunds totaling more than
$24.8 million in Homebuyer Credits despite indications the taxpayer either purchased their home
from a related party or had not actually made a qualifying home purchase. Because our review
was limited by the number of years of data we could analyze, this could be a larger problem than
we were able to quantify.
The IRS has made efforts to reduce the number of Homebuyer Credit claims for homes
purchased from related persons. Form 5405 was revised in December 2009, requiring those
claiming the Homebuyer Credit to indicate if they purchased the home from a related person or a
person related to their spouse. Notwithstanding, we believe that without focused compliance
efforts, taxpayers may continue to make claims for Homebuyer Credits based on homes
purchased from related parties.

Recommendation
Recommendation 4: The Director, Reporting Compliance, Wage and Investment Division,
should develop a method similar to that used by the TIGTA to identify improper claims for
purchases from related persons and conduct examinations as appropriate to ensure the Credits are
recovered.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has established a method, similar to that used by the TIGTA, to identify improper
       related-person claims. These claims have been identified and considered for the
       post-refund examination pool.

Taxpayers Received Homebuyer Credits Without Providing Valid
Addresses of Homes They Reported Purchasing
We identified a large number of taxpayers who did not provide a valid home address to claim
Homebuyer Credits on their Tax Year 2008 tax returns. These taxpayers listed either a post


                                                                                         Page 8
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



office box number as their qualifying home address or provided address information indicating a
home purchase had not taken place.
The Homebuyer Credit was a refundable tax credit available to qualifying first-time home buyers
who purchased a principal residence in the United States. To claim the Credit, taxpayers were
instructed to provide the address of the qualifying home on Form 5405. This requirement was
waived if the qualifying home address was already listed on the Form 1040.
We identified 7,499 taxpayers who listed a post office box number as their qualifying home
address either on the Form 5405 or the Form 1040. We determined 6,726 taxpayers listed the
post office box number on the Form 1040 (leaving the address blank on the Form 5405) and
773 taxpayers listed the post office box number on the Form 5405. We analyzed a statistically
valid sample of 366 of the 7,499 claims and found the following:
   ● 314 claims (85.8 percent) were refunded to the taxpayer without any IRS scrutiny.
   ● 41 claims (11.2 percent) received either pre-refund or post-refund scrutiny.
   ● 11 claims (3 percent) did in fact provide a legitimate address because the taxpayer listed a
     valid street address in addition to the post office box number.
We further researched the 314 claims identified in the sample and were able to obtain valid
qualifying home addresses for 218 of the claims through sources other than the tax return. Based
on the remaining 96 claims for which we were unable to identify valid home addresses, we
estimate 1,966 erroneous claims totaling $10.9 million were refunded to taxpayers without any
IRS scrutiny.
The IRS has implemented some controls to attempt to reduce the number of claims being
released that list post office box addresses. In June 2009, the IRS initiated controls to identify
claims listing a post office box on amended tax returns. In February 2010, the IRS implemented
additional controls to identify claims listing post office box addresses on original returns for the
2010 Filing Season.
In addition to the taxpayers who listed a post office box number as their qualifying home
address, we identified 449 taxpayers who provided an address indicating a home purchase had
not taken place. These taxpayers listed an address such as “Undecided” or “To Be Determined”
on the Form 5405. We analyzed a statistically valid sample of 208 of the 449 claims and found
the following:
   ● 83 claims (39.9 percent) were refunded to the taxpayer without any IRS scrutiny.
   ● 125 claims (60.1 percent) received IRS scrutiny either prior or subsequent to the refund.
We further examined the 83 claims identified in the sample and were able to obtain valid home
addresses for 18 of the claims. Based on the remaining 65 claims for which we were unable to


                                                                                              Page 9
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



substantiate legitimate home purchases, we estimate that 140 erroneous claims totaling
$1.1 million were released without any IRS scrutiny.

Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should perform a
review of the claims with invalid addresses that the TIGTA identified and correspond with
taxpayers in order to validate the home purchases. The TIGTA has the list of taxpayers
previously described and will make it available to IRS functions upon request.
       Management’s Response: IRS management partially agreed with this
       recommendation. The IRS will review the list the TIGTA provides and use third-party
       public property records to validate all home purchases. The IRS will then consider
       questionable claims for appropriate action.

A Filter Designed to Identify Taxpayers Claiming Homebuyer Credits
but Whose Addresses Did Not Change Was Not Programmed
Correctly
A filter designed to identify taxpayers who claimed Homebuyer Credits without actually
purchasing new homes did not work effectively. Included in the filters the IRS instituted in
May 2009 was a filter designed to identify instances where the address on the taxpayer’s
Form 1040 used to claim the Homebuyer Credit was the same address used by the taxpayer on
their previously filed Form 1040.
We found that the filter does not appear to identify all the claims that meet the criterion. We
identified 91,887 Homebuyer Credit claims filed on electronic Tax Year 2008 returns that met
the IRS’s filter criteria. We reviewed a statistically valid sample of 383 returns and found that
the IRS filter flagged only 307 (80.2 percent) of those claims.
We further reviewed the 76 claims that were not flagged and found that 62 of the claims were for
legitimate home purchases, but 14 were not. Of the 14 claims for which a home purchase had
not taken place, the IRS was able to identify and stop 9 by using other filters or post-refund
reviews. The remaining five were refunded to taxpayers with no IRS scrutiny. We were unable
to determine why the computer programming did not work as planned. However, based on these
results, we estimate that 1,199 taxpayers were not identified by IRS filters and received
$8.6 million in potentially erroneous refunds without any scrutiny.

Recommendation
Recommendation 6: For Tax Year 2010, the Commissioner, Wage and Investment Division,
should modify the programming for the filter to identify taxpayers who did not purchase a home

                                                                                           Page 10
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



so that it identifies all claims meeting the specified criteria. The TIGTA has a list of the
taxpayers who should have been flagged, but were not, and will make it available to the IRS
upon request.
         Management’s Response: IRS management agreed with this recommendation. The
         IRS has already modified the filter criteria. The IRS will review the list of taxpayers the
         TIGTA provides and use third-party public property records to validate all home
         purchases. The results will be assessed for appropriate action.

Taxpayers Received Homebuyer Credits Without Providing Valid
Acquisition Dates on Form 5405
To claim the Homebuyer Credit, eligible taxpayers were required to complete and file
Form 5405. Form 5405 requires the taxpayer to provide, among other information, the date the
home was purchased. The instructions provided with the Form clearly indicate that taxpayers
must have purchased the home after April 8, 2008, and, in general, before May 1, 2010.
We identified 3,446 electronic Homebuyer Credit claims for which taxpayers did not provide
valid acquisition dates on their Forms 5405. We selected and reviewed a statistical sample of
346 claims and determined that 318 claims did not include acquisition dates on the Form 5405
(taxpayers left it blank) and 28 claims contained invalid data (acquisition dates provided were
incomplete and/or in a format incompatible with IRS software).
We reviewed the statistical sample of 346 claims on Accurint7 and were unable to substantiate
legitimate home purchases for 120 claims. Of the 120 claims, we determined that 110 had not
received any IRS scrutiny either prior or subsequent to the refund being released. Based on the
110 claims in our sample, we estimate that 1,095 taxpayers received $7.7 million in potentially
erroneous refunds for which they were not entitled.
We recognize the IRS’s efforts to stop claims with invalid acquisition dates. By April 2009, the
IRS implemented controls on both electronic and paper returns to identify and stop claims that
did not contain acquisition dates within the eligible dates allowed by law.

Recommendation
Recommendation 7: The Director, Reporting Compliance, Wage and Investment Division,
should identify those claims for which valid acquisition dates were not supplied and initiate
post-refund examinations (including the use of soft notices) to ensure refunds for the invalid



7
 A database maintained by LexisNexis that provides, in part, third-party data listing real estate and property
ownership records.
                                                                                                             Page 11
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



claims are recovered. The TIGTA has the list of taxpayers previously described and will make it
available to the IRS upon request.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will review the list the TIGTA provides and use third-party public property records
       to validate all home purchases, including acquisition dates. Invalid acquisition dates will
       be evaluated to determine the appropriate treatment.

Additional Internal Revenue Service Employees Made Questionable
Claims for the Homebuyer Credit
In prior interim reports, we identified and referred 87 IRS employees who appeared not to be
first-time homebuyers based on tax information that indicated they had owned homes within
3 years prior to their new home purchases. To qualify as a first-time homebuyer, a taxpayer (or a
taxpayer’s spouse) may not have previously owned a principal residence for 3 years prior to the
purchase date of the home for which the Homebuyer Credit is claimed. The employees we
identified had claimed deductions or tax credits such as mortgage interest, real estate taxes,
mortgage insurance premiums, Residential Energy Credits, or Mortgage Interest Credits on at
least one of their prior three tax returns. We referred the employees to the TIGTA Office of
Investigations in August 2009 and February 2010.
Subsequent to the two referrals, we completed additional audit tests for issues related to the
Homebuyer Credit and identified claims made by 41 IRS employees that appear to be
questionable based on the following test criteria:
   •   The home acquisition date was subsequent to the date the IRS processed the return (the
       employee listed a future purchase date).
   •   The home acquisition date was prior to April 9, 2008; the date allowed by the HERA
       legislation.
   •   The home address claimed by the employee was an address on which multiple taxpayers
       claimed the Credit and the combined amounts for each address exceeded the maximum
       Credit amount of $8,000.
   •   A post office box number was listed as the address for which the Credit was claimed.
   •   The new home address was the same address that the employee listed on a previously
       filed return.
   •   The employee appeared not to be a first-time homebuyer based on tax information that
       indicated they had owned a home within 3 years prior to the purchase of the new home
       (these claims were made on Tax Year 2009 returns and were in addition to the 87 claims
       previously identified).

                                                                                            Page 12
                 Administration of the First-Time Homebuyer Credit
                     Indicates a Need for Improved Controls
                              Over Refundable Credits



Provisions for the Homebuyer Credit were included in the HERA, the Recovery Act, and most
recently, the WHBAA. The cases detailed in this report include claims made under one of these
three Acts. We referred these 41 IRS employees to the TIGTA Office of Investigations in
August 2010.

Action Was Taken to Ensure That Taxpayers Who Were Unaware of
the Changes to the Homebuyer Credit Received the Full Credit to
Which They Were Entitled
We identified taxpayers who appeared to have not claimed or received the full amount of the
Homebuyer Credit to which they may have been entitled. These taxpayers claimed $7,500 rather
than $8,000 for homes purchased in Calendar Year 2009.
As a result, the IRS sent 23,437 notices to taxpayers who purchased homes in Calendar
Year 2009, received a Homebuyer Credit of $7,500, and had not amended their return to claim
an additional amount of Homebuyer Credit. In response to these notices, we estimated that these
taxpayers could potentially claim and receive $11.7 million in additional Homebuyer Credits to
which they are entitled.




                                                                                       Page 13
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Interim (Phase I) Detailed Objective, Scope, and Methodology
The overall objective of this audit was to determine whether the IRS had controls in place that
effectively identified erroneous claims for the First-Time Homebuyer Credit (Homebuyer
Credit). (In general, this audit is covering post-processing procedures on original returns and
both processing and post-processing procedures on amended returns.) Steps I and II were
completed as part of TIGTA Audit Report, The 2009 Filing Season Was Successful Despite
Significant Challenges Presented by the Passage of New Tax Legislation (Reference
Number 2009-40-142, dated September 21, 2009), and the results from these steps were included
in this report.1 To accomplish our objective, we:
I.       Computer identified 1,129,480 returns processed with the First-Time Homebuyer
         Credit and Repayment of the Credit (Form 5405) through June 5, 2009, and analyzed
         58,741 early filed returns2 and determined whether certain programming was in place.
         (To assess the reliability of the computer-processed data, programmers in the TIGTA
         Office of Information Services validated the data that were extracted, and we verified the
         appropriate documentation. Judgmental samples were selected and reviewed to ensure
         that the amounts presented were supported by external sources. As appropriate, data in
         the selected data records were compared to the physical tax returns to verify that the
         amounts were supported.)
II.      Assessed whether adequate information was provided by the taxpayer and/or transcribed
         into IRS computer systems and utilized to ensure claims for the Homebuyer Credit could
         be substantiated.
III.     Identified the number of returns that claimed the Homebuyer Credit with a purchase date
         of the home later than the submission date of the return and determined what the IRS
         Examination function planned to do with these cases.
         A. Developed computer programs to identify all electronically filed returns with
            Homebuyer Credit claims with a submission date prior to the acquisition date of the




1
  Although these steps were not part of the audit work completed as part of this review, we are including them in the
detailed scope to provide the reader a reference to what steps were completed to support our conclusions.
2
  Returns processed the week ending January 30, 2009.
                                                                                                            Page 14
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



             home and validated the data by comparing 50 taxpayer accounts to information found
             on the IRS Individual Master File.3
        B. Summarized the data to show how many erroneous claims were submitted with a
           “future” acquisition date and quantified the dollars claimed.
        C. Discussed with IRS Examination function management their plans for addressing
           these Homebuyer Credit claims and why these claims were allowed.
IV.     Developed a computer program to identify taxpayers erroneously claiming the
        Homebuyer Credit.
        A. Determined criteria to identify taxpayers who have owned a home within 3 years of
           requesting the Homebuyer Credit (e.g., taxpayers who claimed points, mortgage
           interest, mortgage insurance, real estate taxes, the Residential Energy Credit, the
           Mortgage Interest Credit, and/or the District of Columbia First-Time Homebuyer Tax
           Credit).
        B. Developed the computer program to identify taxpayers who met the same criteria
           listed in Step IV.A. and claimed the Homebuyer Credit.
        C. Evaluated the results of the computer program.
             1. Summarized the number of paper and electronic taxpayer claims that were
                identified by the computer program as potentially erroneous.
             2. Assessed the reliability of the program run to accurately identify those taxpayers
                not qualifying for the Credit by comparing the data from 50 records to
                information from the IRS Individual Master File.
        D. Determined whether the IRS had identified and reviewed (or planned to review) any
           of the potentially erroneous claims for the Homebuyer Credit identified by our
           computer program prior to the initiation of its examination filters.
             1. Reviewed the tax accounts of a judgmental sample4 of 50 taxpayers from the
                computer data to see if the accounts had received scrutiny from either Criminal
                Investigation or the Examination function relative to their claims for the
                Homebuyer Credit.
             2. Discussed with Examination function management the IRS’s plans to work the
                potentially erroneous claims we identified as post-refund cases.



3
 The IRS database that maintains transactions or records of individual tax accounts.
4
 We selected the 50 cases using a nonstatistical random method from our database of taxpayers filing before the
IRS filters were in place and who may have previously owned a home.
                                                                                                          Page 15
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



V.      Identified returns where the age of the taxpayer may indicate a possible erroneous claim.
        A. Performed a query on the Data Center Warehouse5 and identified taxpayers younger
           than age 18 who claimed the Homebuyer Credit on their return. We validated the
           data by comparing 30 taxpayer accounts to information found on the IRS Individual
           Master File.
        B. Stratified the returns by age and reviewed any that may indicate the claim is
           erroneous.
             1. Identified 417 taxpayers through July 25, 2009, having an Adjusted Gross Income
                within the range of the Examination function’s filter and reviewed each for
                Examination function or Criminal Investigation indicators.
             2. Identified 165 taxpayers through July 25, 2009, with Adjusted Gross Income
                greater than the Examination function’s filter limit and reviewed each for
                Examination function or Criminal Investigation indicators.
VI.     Identified claims made by Individual Taxpayer Identification Number6 holders and
        quantified the results.
        A. Performed a Data Center Warehouse query to identify taxpayers with an Individual
           Taxpayer Identification Number who claimed a Homebuyer Credit.
        B. Validated and assessed the reliability of the data by comparing the information from
           20 records to the IRS Individual Master File.
VII.    Identified IRS controls and programs designed to prevent erroneous Homebuyer Credit
        claims on amended returns.
        A. Determined the specific programs and filters that the IRS uses to identify case work.
        B. Determined the documentation that is required to support the claims, particularly
           considering the President’s declaration that every effort should be made to prevent
           fraud, not just identify it after the fact.
VIII.   Determined the IRS’s plans for addressing taxpayers who did not claim or receive the
        proper amount of Homebuyer Credit (purchased a home in Calendar Year 2009, qualified
        for $8,000, but only claimed $7,500).



5
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
TIGTA for the purpose of analyzing data for ongoing audits.
6
  An Individual Taxpayer Identification Number is a tax processing number issued by the IRS to individuals who are
required to have a U.S. taxpayer identification number but do not have, and are not eligible to obtain, a Social
Security Number.
                                                                                                        Page 16
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



         A. Using the TIGTA computer queries, determined the number of taxpayers who
            claimed and/or received $7,500 even though they potentially qualified for $8,000
            because the home was purchased in Calendar Year 2009. We validated the data by
            comparing 10 taxpayer accounts to information found on the IRS Individual Master
            File.
         B. Determined the number of taxpayers meeting the criteria in Step VIII.A. who filed an
            amended return for the difference ($500). We determined if the returns were properly
            identified as taxpayers not having to pay back the Credit (either when originally filed
            or when amended).
         C. Determined the IRS’s plans for addressing taxpayers who did not receive the full
            Homebuyer Credit amount.
IX.      Identified and referred to the TIGTA Office of Investigations 53 IRS employees who had
         indications of prior home ownership and claimed the Homebuyer Credit on their Tax
         Year 2008 tax return. These employees filed as the primary taxpayer on their return.

Interim (Phase II) Detailed Objective, Scope, and Methodology
The overall objectives of the audits addressed in this interim report were to determine whether
the IRS had controls in place that effectively identified erroneous claims for the Homebuyer
Credit and to determine whether the IRS had controls in place to ensure claims for the
Homebuyer Credit claimed on amended income tax returns were appropriately processed. To
accomplish our objectives, we:
I.       Identified prisoners who made claims for the Homebuyer Credit and determined whether
         they received the refund and whether they received appropriate scrutiny from the IRS.
         A. Developed computer programs to match prisoners listed on the IRS’s 2009 Prisoner
            File that met our criteria (incarcerated before April 9, 2008, and released after
            January 1, 2010) with taxpayers who claimed the Homebuyer Credit.7 We also
            included prisoners if they claimed more than $7,500 and began their incarceration
            between April 8, 2008, and January 1, 2009).
         B. From the population of 4,608 prisoners identified in Step I.A. who claimed the Credit,
            we evaluated a statistical sample8 of 306 to determine if any of the claims were
            refunded or had received scrutiny from either Criminal Investigation or the
            Examination function. We assessed the reliability of the data by comparing


7
 From the data in our Data Center Warehouse.
8
 The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
30 percent expected error rate.
                                                                                                             Page 17
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



             30 records with the Federal Bureau of Prisons web site and the Prison Inmate Search
             web site.
        C. Researched a judgmental sample9 of 715 prisoner claims that we considered to be the
           most egregious and determined whether the claims were refunded and whether they
           had received scrutiny from either Criminal Investigation or the Examination function.
        D. Identified preparers who appear to be routinely filing returns for prisoners claiming
           the Homebuyer Credit.
        E. Determined if prisoners receiving the Homebuyer Credit appeared on the IRS’s
           2007 Prisoner File and/or the IRS’s 2008 Prisoner File.
II.     Identified and reviewed claims originating from the same address for more than the
        maximum amount allowed.
        A. Combined information from the Data Center Warehouse and files received from
           TIGTA Information Services employees to identify 18,832 taxpayers who claimed
           the Homebuyer Credit on the same address where the total amount of the claim was
           more than $8,000 per address. We identified valid taxpayers filing electronically who
           claimed the Credit on their original Tax Year 2008 tax return during Processing
           Year 2009 as of December 31, 2009.
        B. Validated and assessed the reliability and completeness of the computer data by
           comparing 30 records to IRS Master File10 data.
        C. Selected and reviewed a statistically valid sample11 of 377 claims to determine
           whether the claims had received scrutiny from either Criminal Investigation or the
           Examination function.
        D. Selected and reviewed an additional judgmental sample12 of 256 claims to determine
           whether the claims had received scrutiny from either Criminal Investigation or the
           Examination function.


9
  We selected the 715 cases using a nonstatistical sample including all prisoners whose filing status was something
other than joint and who were serving life sentences during the period their home would had to have been
purchased. We used a judgmental sample because we did not intend to project the results of this sample to the entire
population.
10
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
11
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
12
   We selected a nonstatistical sample by identifying the top five addresses most used and researched all the
taxpayers listing those addresses as their home. We used a judgmental sample because we did not intend to project
the results of this sample to the entire population.
                                                                                                          Page 18
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



         E. Added information from the Data Center Warehouse preparer files to the
            18,832 taxpayer records to determine if preparers appeared to be filing claims for the
            same address.
         F. Conducted research through third-party sources to verify the top five addresses were
            not multi-family dwellings or apartment complexes that may have been legitimately
            claimed by multiple taxpayers.
III.     Identified and reviewed claims with acquisition dates prior to the effective date of the
         HERA.13
         A. Computer identified 2,751 claims from the IRS’s Individual Return Transaction File14
            with an acquisition date prior to April 9, 2008, the effective date of the HERA
            legislation. We identified original electronic Tax Year 2008 U.S. Individual Income
            Tax Returns (Form 1040) processed during Processing Year 2009.
         B. Assessed the validity and completeness of the computer data by comparing 35 records
            to IRS Individual Master File information and third-party sources.
         C. Selected and reviewed a statistically valid sample15 of 338 of the 2,751 claims to
            determine whether they received scrutiny from either Criminal Investigation or the
            Examination function.
IV.      Identified and evaluated controls over amended returns for identifying, stopping, and
         correcting erroneous claims for the Homebuyer Credit.
         A. Reviewed documented procedures (e.g., Internal Revenue Manual, desk procedures)
            to identify Category A criteria16 used by the IRS’s “1040X” unit when processing
            amended returns.
         B. Worked with TIGTA Information Services programmers to develop a computer
            program to identify taxpayers with returns on the IRS’s Individual Return Transaction
            File indicating prior home ownership and claiming the Homebuyer Credit on their
            Tax Year 2008 tax return during Processing Year 2009. The records were obtained
            from the IRS Master File. We validated the data received by comparing 30 records to
            IRS Master File data.




13
   Pub. L. No. 110-289.
14
   The IRS computer file containing individual tax return data.
15
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
16
   Category A criteria identifies issues that require a referral to the Examination function classifiers prior to allowing
a taxpayer’s claim.
                                                                                                                Page 19
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



         C. From a population of 25,970 claims, selected and reviewed a statistically valid
            sample17 of 379 claims for indications that the return was identified for meeting
            Category A criteria and was forwarded to the Examination function for further
            scrutiny.
V.       Identified and referred to the TIGTA Office of Investigations 34 IRS employees who had
         indications of prior home ownership and claimed the Homebuyer Credit on their Tax
         Year 2008 tax return. The employees filed as secondary taxpayers on original returns
         and both primary and secondary filers on amended returns.

Final (Phase III) Detailed Objective, Scope, and Methodology
The overall objective of this audit was to determine whether the IRS has controls in place that
effectively identify erroneous claims for the Homebuyer Credit. To accomplish our objective,
we:
I.       Identified and reviewed claims without recorded acquisition dates.
         A. Computer identified 3,446 claims from the IRS’s Individual Return Transaction File
            that did not have a recorded acquisition date listed on the Tax Year 2008 Form 5405.
            We identified original electronic Tax Year 2008 Forms 1040 processed during
            Processing Year 2009.
         B. Assessed the validity and completeness of the computer data by selecting a
            statistically valid sample18 of 346 claims and comparing the records to IRS Individual
            Master File information.
         C. Selected and reviewed a statistically valid sample of 346 of the 3,446 claims to
            determine whether they received scrutiny from either Criminal Investigation or the
            Examination function.
         D. Conducted research through third-party sources for the 346 claims to verify property
            ownership information and determine whether a home purchase occurred.
II.      Identified instances in which the taxpayer purchased their new residence from a related
         person.
         A. Computer identified 14,186 taxpayers from the IRS’s Individual Return Transaction
            File that claimed the Homebuyer Credit on their Tax Year 2008 returns using the



17
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
18
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
                                                                                                              Page 20
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



             address of a taxpayer who had previously claimed them or their spouse as a
             dependent.
         B. Selected and reviewed a statistically valid sample19 of 375 of the 14,186 claims to
            assess the validity of the computer data and to determine whether the claims received
            scrutiny from either Criminal Investigation or the Examination function by comparing
            the records to IRS Master File information.
         C. Conducted research through third-party sources for 151 of the 375 claims20 to verify
            property ownership information and to determine whether the claim was based on a
            home purchased from a related person.
III.     Researched questionable claims to determine if the IRS ensures the validity of a home
         purchase.
         A. Using information from the IRS’s Individual Return Transaction File, computer
            identified 61,994 claims, of which 54,117 claims listed an apartment address,
            7,499 claims listed a post office box address, and 378 claims had a phrase in the
            address indicating no home purchase (e.g., Undecided, Unknown, To Be
            Determined). We identified original electronic Tax Year 2008 Forms 1040 processed
            during Processing Year 2009.
             1. Selected and reviewed a statistically valid sample of 382 (334 were apartments) of
                the 61,994 claims to validate the computer data and to determine whether the
                claims had received scrutiny from either Criminal Investigation or the
                Examination function by comparing the records to IRS Master File information.
             2. Conducted research through third-party sources to verify property ownership
                information for 30 of the 334 claims listing an apartment address.21
             3. Selected and reviewed a statistically valid sample22 of 366 of the 7,499 claims
                listing a post office box address to validate the computer data and to determine



19
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
20
   We selected 151 claims identified from our statistically valid sample of 375. We selected claims that used the
address of a taxpayer who had previously claimed the primary taxpayer, had indications that the taxpayer purchased
from a direct ancestor or lineal descendant, and received the Homebuyer Credit without any IRS scrutiny. We used
the extract from our statistically valid sample because we intended to project the results of this sample to the entire
population.
21
   We selected the first 30 of the 334 identified claims using an apartment address. We used a judgmental sample
because we did not intend to project the results of this sample to the entire population.
22
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
                                                                                                              Page 21
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



                  whether the claims had received scrutiny from either Criminal Investigation or the
                  Examination function by comparing the records to IRS Master File information.
             4. Performed a second query of addresses with a phrase indicating no home purchase
                had occurred after finding additional phrases used by taxpayers (resulting in
                449 claims). Selected and reviewed a statistically valid sample23 of 208 of the
                449 claims in which the taxpayer indicated an unknown address to validate the
                computer data and to determine whether the claims had received scrutiny from
                either Criminal Investigation or the Examination function.
         B. From a population of 139,847 paper returns claiming the Homebuyer Credit,
            reviewed a statistically valid sample24 of 524 claims to determine the number of
            taxpayers who listed a post office box as the address of their newly purchased
            residence. We identified original Tax Year 2008 Forms 1040 processed during
            Processing Year 2009.
         C. Using information from the IRS’s Individual Return Transaction File, computer
            identified 91,887 taxpayers who listed the same address on their Tax Year 2008
            Form 1040 as an address used on a tax return filed in a previous year.
             1. Validated and assessed the reliability and completeness of the computer data by
                comparing 30 records to IRS Master File data.
             2. Selected and reviewed a statistically valid sample25 of 383 claims to determine
                whether the claims had received scrutiny from either Criminal Investigation or the
                Examination function.
             3. Conduced research through third-party sources for the 383 claims to verify
                property ownership information and determine whether a home purchase
                occurred.
IV.      Identified and referred to the TIGTA Office of Investigations 41 IRS employees who met
         additional audit test criteria not identified in the interim reports. These employees listed
         invalid acquisition dates, questionable or invalid home addresses, or claimed the
         Homebuyer Credit on their Tax Year 2009 tax return and had indications of prior home


23
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
24
   The statistical sample size needed using a 95 percent confidence level, a 5 percent precision, and a 50 percent
expected error rate was 384 returns. We ordered 600 returns to ensure we received enough. We received and
reviewed 524 of the 600 returns, which resulted in an actual confidence level of 95.5 percent, a 4.362 percent
precision, and a 50 percent expected error rate.
25
   The statistical sample size was selected by using a 95 percent confidence level, a 5 percent precision, and a
50 percent expected error rate.
                                                                                                             Page 22
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



       ownership. These employees filed as either primary or secondary taxpayers on original
       returns.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to the identification of erroneous claims for the Homebuyer Credit filed on both
original and amended returns. The computer analyses and audit steps described above were
designed to test these controls.




                                                                                          Page 23
                 Administration of the First-Time Homebuyer Credit
                     Indicates a Need for Improved Controls
                              Over Refundable Credits



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
L. Jeff Anderson, Lead Auditor
Laura Paulsen, Lead Auditor
Steven D. Stephens, Senior Auditor
Roy Thompson, Senior Auditor
Levi J. Dickson, Auditor
Nathan J. Smith, Auditor
Robert J. Carpenter, Information Technology Specialist
Michele S. Cove, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Martha A. Stewart, Information Technology Specialist




                                                                                    Page 24
                 Administration of the First-Time Homebuyer Credit
                     Indicates a Need for Improved Controls
                              Over Refundable Credits



                                                                            Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Refund Crimes SE:CI:RC
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Program Manager, Policy and Strategic Planning, Communications, Liaison, and Disclosure,
   Small Business/Self-Employed Division SE:S:CLD:PSP
   Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PRA:PEI
Assistant Secretary of the Treasury for Tax Policy




                                                                                    Page 25
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •    Funds Put to Better Use – Potential; $97,804,405 in erroneous refunds were issued to
         13,448 taxpayers for First-Time Homebuyer Credit (Homebuyer Credit) claims based on
         future home acquisitions (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File1 a computer extract of 19,351 Tax
Year 2008 tax returns on which taxpayers claimed Homebuyer Credits for homes which had not
yet been purchased, but reportedly would be in the future (the acquisition dates provided on the
taxpayers’ returns were subsequent to the dates the IRS processed the returns).
In an interim report2 for this audit, the TIGTA recommended the IRS determine which of the
future acquisition claims were in fact erroneous and recover any applicable Credits. In response,
the IRS sent notices to those taxpayers and reversed the Homebuyer Credit if the taxpayer failed
to provide proof of an actual home purchase.
Subsequent to the IRS contacting these taxpayers, we reviewed a statistically valid sample of
377 of the 19,351 claims and found 262 Homebuyer Credits (69.4960 percent) were reversed,
indicating the taxpayer did not provide the IRS proof of an actual home purchase. By
multiplying 0.694960 by the population of 19,351, we estimated that 13,4483 erroneous claims
were processed by the IRS even though the taxpayer had not purchased a home.
We determined that the 262 claims in our sample totaled $1,905,446 and divided by the sample
size of 377, resulting in a sample average of $5,054.23. By multiplying $5,054.23 by the




1
  A database the IRS maintains that contains information on the individual tax returns it receives.
2
  The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Reference Number 2009-41-144, dated September 29, 2009).
3
  Our projection is based on a 95 percent confidence level and a precision (range) of ± 892 (12,556 – 14,340 claims).
                                                                                                           Page 26
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



population of 19,351, we projected that the IRS could potentially recover $97,804,4054 in
erroneous claims.

Type and Value of Outcome Measure:
    •   Funds Put to Better Use – Potential; $325,753,348 in erroneous refunds were issued to
        47,576 taxpayers who claimed Homebuyer Credits despite indications that they owned a
        home within the past 3 years and, therefore, may not qualify as “first-time homebuyers”
        (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of
69,966 taxpayers who claimed Homebuyer Credits on their Tax Year 2008 electronic tax returns
but had indications of owning a home within 3 years prior to the purchase of the home for which
the Credit applied. The claims identified were processed by the IRS prior to the initiation of its
computerized pre-refund Examination filters on May 17, 2009.
To estimate the percentage of these claims the IRS would disallow through examinations, we
obtained the IRS’s Homebuyer Credit Enforcement Report as of May 21, 2010, which provides
data showing the success of IRS examinations. Because specific categories of Homebuyer
Credits were unavailable, we used the overall “change rate” for Homebuyer Credits of
68 percent. By multiplying 0.68 by the population of 69,966, we estimated that 47,576 claims
would be disallowed through post-refund examinations.
The average proposed dollar change per the Enforcement Report equaled $7,283. However, to
ensure our projections were conservative, we used the average claim amount for the
69,966 cases. The 69,966 taxpayers claimed Homebuyer Credits totaling $479,058,098.72, an
average of $6,847.01 per claim. By multiplying $6,847.01 by the 47,576 estimated claims, we
projected that $325,753,348 in erroneous refunds were released.

Type and Value of Outcome Measure:
    •   Revenue Protection – Actual; $531,134 of Homebuyer Credits claimed by 96 taxpayers
        under 18 years of age were appropriately disallowed (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of
582 taxpayers under 18 years of age who claimed almost $4 million in Homebuyer Credits. In


4
 Our projection is based on a 95 percent confidence level and a precision (range) of ± $6,623,583 ($91,180,822 –
$104,427,988).
                                                                                                         Page 27
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



an interim report5 for this audit, the TIGTA recommended that the IRS implement filters to
identify taxpayers under age 18 claiming the Homebuyer Credit.
As a direct result of congressional hearings in October 2009 related to the TIGTA’s audit report,
subsequent legislation was passed as part of the WHBAA6 to allow the IRS the authority to
disallow Homebuyer Credit claims made by taxpayers under 18 years of age. In addition, the
IRS implemented a processing filter designed to identify claims made by underage taxpayers for
the Credit.
During the 2010 Filing Season, TIGTA identified 96 taxpayers under 18 years of age that
claimed Homebuyer Credits totaling $531,134 that were identified by the IRS during processing
and were denied the credit. None of the 96 taxpayers filed as married filing jointly.

Type and Value of Outcome Measure:
    •    Funds Put to Better Use – Potential; $7,654,164 in erroneous refunds were issued to
         1,084 prisoners claiming the Homebuyer Credit (see page 3).

Methodology Used to Measure the Reported Benefit:
Using information from the IRS Individual Return Transaction File and the IRS Prisoner File,7
we identified 4,608 individuals claiming Homebuyer Credits on their Tax Year 2008 returns
despite the fact that they were in prison at the time their qualifying home was reportedly
purchased.
We reviewed a statistically valid sample of 306 of the 4,608 claims and found that 72 claims
(23.5294 percent) were refunded to the prisoners without any IRS scrutiny. By multiplying
0.235294 by the population of 4,608 prisoners claiming the Homebuyer Credit, we estimated
1,0848 claims were erroneously refunded to prisoners.
We determined that the 72 claims in our sample totaled $508,284 and divided by the sample size
of 306, resulting in a sample average of $1,661.06. By multiplying $1,661.06 by the population
of 4,608, we projected that prisoners received $7,654,1649 to which they were not entitled.




5
  The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Reference Number 2009-41-144, dated September 29, 2009).
6
  Pub. L. No. 111-92, 123 Stat 2984 (2009).
7
  A computer file maintained by the IRS containing prisoner information. In general, this file contained individuals
incarcerated in September 2009 or prior.
8
  Our projection is based on a 95 percent confidence level and a precision (range) of ± 212 (872 – 1,296 claims).
9
  Our projection is based on a 95 percent confidence level and a precision (range) of ± $1,536,059 ($6,118,105 –
$9,190,223).
                                                                                                           Page 28
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $11,356,751 of erroneous refunds were issued to
         2,587 taxpayers for improper claims of Homebuyer Credits without any IRS scrutiny
         despite using an address for which multiple taxpayers claimed the Credit (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of
18,832 Homebuyer Credit claims on individual electronic Tax Year 2008 income tax returns that
listed an address for which at least one other taxpayer also claimed the Homebuyer Credit and
the combined amounts of those claims were more than the maximum amount allowed. We
determined that the 18,832 claims used only 7,695 addresses total.
We reviewed a statistically valid sample of 377 of the 18,832 claims and found 206 claims
(54.6 percent) were refunded by the IRS without any pre-refund or post-refund examination
scrutiny. By multiplying 0.546 by the population of 18,832, we projected that
10,28210 questionable claims were refunded without IRS scrutiny.
We determined that the 206 claims in our sample totaled $1,459,730 and divided by the sample
size of 377, resulting in a sample average of $3,871.96. By multiplying $3,871.96 by the
population of 18,832, we projected that taxpayers received $72,916,75111 to which they were not
entitled.
To ensure our projections were conservative, we assumed that one claim totaling $8,000 for
each of the addresses was legitimate and subtracted 7,695 claims totaling $61,560,000 (7,695 x
$8,000) from our outcomes, resulting in 2,587 questionable claims totaling $11,356,751.12

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $17,622,548 in erroneous refunds were issued to
         2,555 taxpayers for Homebuyer Credit claims based on homes reportedly purchased prior
         to dates allowed by law (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of 2,751 Tax
Year 2008 individual electronic income tax returns with claims for Homebuyer Credits listing


10
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 938 (9,344 – 11,220 claims).
11
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $6,776,952 ($66,139,799 –
$79,693,703).
12
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $6,776,952 ($4,579,799 –
$18,133,703).
                                                                                                            Page 29
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



acquisition dates prior to April 9, 2008, the effective date of the HERA legislation. As a result,
the IRS sent notices to the 2,751 taxpayers and reversed the Homebuyer Credit if the taxpayer
failed to substantiate that the home purchase was within the dates allowed by law.
In order to estimate the amount the IRS could potentially recover, we reviewed a statistically
valid sample of 338 of the 2,751 claims and found 24 claims (7.1 percent) were already receiving
IRS scrutiny or taxpayers had already voluntarily repaid the erroneous credits. Based on the
remaining 92.9 percent that were not scrutinized or repaid, we estimate that for Tax Year 2008,
approximately 2,55513 taxpayers filing electronic returns received inappropriate Homebuyer
Credits based on homes purchased prior to dates allowed by the law.
We determined that the 314 (338 – 24 = 314) claims in our sample that had not received IRS
scrutiny or had been repaid totaled $2,165,185 and divided by the sample size of 338, resulting
in a sample average of $6,405.87. By multiplying $6,405.87 by the population of 2,751, we
projected that taxpayers received $17,622,54814 to which they were not entitled.

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $24,875,718 in erroneous refunds were issued to
         3,745 taxpayers who claimed Homebuyer Credits based on homes purchased from related
         parties (see page 7).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of
14,186 taxpayers who claimed Homebuyer Credits for what appear to be homes purchased from
related persons (see Appendix V for additional information concerning our methodology and
scope). These taxpayers filed for Homebuyer Credits on their 2008 electronic tax returns and
listed as their newly purchased residence the home address of a taxpayer who had previously
claimed them or their spouse as a dependent.
We reviewed a statistically valid sample of 375 of the claims and found 99 claims (26.4 percent)
could not be validated through Accurint15 research as legitimate home purchases and were
refunded to the taxpayer without any IRS scrutiny. Of the 99 claims, we determined 39 claims
were for homes purchased from a direct ancestor or descendent of the taxpayer and 60 claims
were for home purchases that had not actually occurred. By multiplying 0.264 by the population



13
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 71 (2,484 – 2,626 claims).
14
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $633,097 ($16,989,451 –
$18,255,645).
15
   A database maintained by LexisNexis that provides, in part, third-party data listing real estate and property
ownership records.
                                                                                                            Page 30
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



of 14,186, we estimate 3,74516 erroneous claims for Homebuyer Credits were refunded despite
indications the taxpayer had not made a qualifying home purchase.
We determined that the 99 claims in our sample totaled $657,578 and divided by the sample size
of 375, resulting in a sample average of $1,753.54. By multiplying $1,753.54 by the population
of 14,186, we projected that taxpayers received $24,875,71817 to which they were not entitled.

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $10,893,047 in erroneous Homebuyer Credit claims
         were issued to 1,966 taxpayers for which the taxpayers listed post office box numbers as
         the qualifying home address (see page 8).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of 7,499 Tax
Year 2008 individual electronic income tax returns with Homebuyer Credit claims listing a post
office box number as the qualifying home address.
We reviewed a statistically valid sample of 366 of the 7,499 claims and found 96 claims
(26.2295 percent) could not be validated through Accurint research as legitimate home purchases
and were refunded to the taxpayer without any IRS scrutiny. By multiplying 0.262295 by the
population of 7,499, we estimated that 1,96618 erroneous claims for Homebuyer Credits were
released despite indications the taxpayer had not made a qualifying home purchase.
We determined that the 96 claims in our sample totaled $531,652 and divided by the sample size
of 366, resulting in a sample average of $1,452.60. By multiplying $1,452.60 by the population
of 7,499, we projected that taxpayers received $10,893,04719 to which they were not entitled.

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $1,068,683 in erroneous Homebuyer Credit claims
         were issued to 140 taxpayers for which the taxpayer did not provide a valid qualifying
         home address (see page 8).




16
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 625 (3,120 – 4,370 claims).
17
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $4,339,181 ($20,536,537 –
$29,214,899).
18
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 330 (1636 – 2,296 claims).
19
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $2,044,754 ($8,848,293 –
$12,937,801).
                                                                                                            Page 31
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of 449 Tax
Year 2008 individual electronic income tax returns where the taxpayer did not provide a valid
qualifying home address on the First-Time Homebuyer Credit and Repayment of the Credit
(Form 5405).
We reviewed a statistically valid sample of 208 of the 449 claims and found that
65 (31.25 percent) could not be validated as a legitimate home purchase and were refunded
to the taxpayer without any IRS scrutiny. By multiplying 0.3125 by the population of 449, we
estimated that 14020 Homebuyer Credit claims were released despite indications the taxpayer had
not made a qualifying home purchase.
We determined that the 65 claims in our sample totaled $495,070 and divided by the sample size
of 208, resulting in a sample average of $2,380.14. By multiplying $2,380.14 by the population
of 449, we projected that taxpayers received $1,068,68321 to which they were not entitled.

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $8,636,459 in erroneous refunds were issued to
         1,199 taxpayers who may not have purchased new homes but were not scrutinized by the
         IRS (see page 10).

Methodology Used to Measure the Reported Benefit:
The IRS implemented filters in May 2009 to identify instances where the address on the
taxpayer’s claim for the Homebuyer Credit was the same address used by the taxpayer on a
previous year tax return. Use of the same address from a previous year gave indication that the
taxpayer did not in fact purchase a new home.
We obtained from the IRS Individual Return Transaction File a computer extract of
91,887 taxpayers who listed the same address on their 2008 tax returns as an address used by the
taxpayer on previously filed tax returns.
We reviewed a statistically valid sample of 383 of the 91,887 claims and found 5 questionable
claims (1.3055 percent) could not be validated through Accurint research as legitimate home
purchases and were released to the taxpayer without any IRS scrutiny. By multiplying 0.013055
by the 91,887 claims, we estimated that 1,19922 erroneous claims were refunded without any IRS
scrutiny.


20
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 21 (119 – 161 claims).
21
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $160,330 ($908,353 –
$1,229,013).
22
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 1,044 (155 – 2,243 claims).
                                                                                                            Page 32
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



We determined that the 5 claims in our sample totaled $36,000 and divided by the sample size
of 383, resulting in a sample average of $93.99. By multiplying $93.99 by the population
of 91,887, we projected that taxpayers received $8,636,45923 in erroneous refunds.

Type and Value of Outcome Measure:
     •   Funds Put to Better Use – Potential; $7,667,832 in erroneous refunds were issued to
         1,095 taxpayers for Homebuyer Credit claims even though the taxpayers failed to provide
         an acquisition date for the purchased home (see page 11).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of 3,446 Tax
Year 2008 individual electronic income tax returns with Homebuyer Credit claims where the
taxpayer did not provide an acquisition date for the newly purchased home on the Form 5405.
We reviewed a statistically valid sample of 346 of the 3,446 claims and found 110 claims
(31.7919 percent) could not be validated through Accurint research as legitimate home purchases
and were refunded to the taxpayer without any IRS scrutiny. By multiplying 0.317919 by the
population of 3,446, we estimated that 1,09524 erroneous claims were refunded without any IRS
scrutiny.
We determined that the 110 claims in our sample totaled $769,900 and divided by the sample
size of 346, resulting in a sample average of $2,225.14. By multiplying $2,225.14 by the
population of 3,446, we projected that taxpayers received $7,667,83225 to which they were not
entitled.

Type and Value of Outcome Measure:
     •   Taxpayer Rights and Entitlements – Potential; $11,718,500 in additional Homebuyer
         Credits owed to 23,437 taxpayers (see page 13).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Return Transaction File a computer extract of
48,580 taxpayers who claimed Homebuyer Credits of only $7,500 each for homes purchased in
Calendar Year 2009 even though the law allowed for up to an $8,000 credit. We believed it was
likely taxpayers were unaware that changes to provisions of the law increased the maximum

23
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $7,652,953 ($983,506 –
$16,289,412).
24
   Our projection is based on a 95 percent confidence level and a precision (range) of ± 161 (934 – 1,256 claims).
25
   Our projection is based on a 95 percent confidence level and a precision (range) of ± $1,157,206 ($6,510,626 –
$8,825,038)
                                                                                                            Page 33
                     Administration of the First-Time Homebuyer Credit
                         Indicates a Need for Improved Controls
                                  Over Refundable Credits



amount of the Homebuyer Credit from $7,500 to $8,000 for homes purchased in Calendar
Year 2009.
In an interim report26 for this audit, the TIGTA recommended that the IRS contact taxpayers who
may have been entitled to an additional refund amount. In response, the IRS sent 23,437 notices
to taxpayers who purchased homes in Calendar Year 2009, received a credit of $7,500, and had
not amended their return to claim additional Homebuyer Credits.
By multiplying $500 of potential refund owed to 23,437 taxpayers, we estimated that taxpayers
could be entitled to receive $11,718,500 of additional Homebuyer Credits.




26
  The Internal Revenue Service Faces Significant Challenges in Verifying Eligibility for the First-Time Homebuyer
Credit (Reference Number 2009-41-144, dated September 29, 2009).
                                                                                                         Page 34
                  Administration of the First-Time Homebuyer Credit
                      Indicates a Need for Improved Controls
                               Over Refundable Credits



                                                                                  Appendix V

             Methodology to Identify Individuals
         Erroneously Receiving Homebuyer Credits
        for Homes Purchased From Related Persons

We identified 14,186 individual tax returns (Tax Year 2008) on which taxpayers claimed the
First-Time Homebuyer Credit (Homebuyer Credit) on their returns using the address of a
taxpayer who had previously claimed them or their spouse as a dependent. In other words, these
taxpayers identified their new home purchase as the prior home of a taxpayer who had
previously claimed them or their spouse as a dependent.
The data we accessed to identify dependent history were limited. We were able to computer
analyze dependents claimed on tax returns only between Tax Years 2002 and 2008. Therefore,
in general, we were able to analyze only Homebuyer Credit claims made by taxpayers who were
in their early to mid-twenties. Because of this, we believe that we are able to identify only a
small portion of the problem.
Claimants were instructed to include the address of the qualifying home on their First-Time
Homebuyer Credit and Repayment of the Credit (Form 5405). This requirement was waived if
the qualifying home address was already listed on the U.S. Individual Income Tax Returns
(Form 1040). We compared the qualifying home address to the address of taxpayers who had
listed the claimant as a dependent in the past. While the 14,186 claims have indications of a
purchase from a related person, the fact that they were a dependent does not necessarily mean
they were related for purposes of the Homebuyer Credit.
To further determine how many erroneous claims for the Homebuyer Credit resulted from homes
that were actually acquired from a related person, we analyzed a statistically valid sample of
375 of the 14,186 claims. We initially found that the claims fell in one of three categories:
   •   241 claims used the address of a taxpayer who had previously claimed the primary
       taxpayer as a dependent.
   •   27 claims used the address of a taxpayer who had previously claimed the taxpayer’s
       spouse as a dependent.
   •   107 claims in which the primary taxpayer had claimed the future spouse as a dependent.
We did not take exception to the third category (107 claims) because, after further analysis, we
determined that these claims likely qualified for the Homebuyer Credit. For these cases, it


                                                                                          Page 35
                      Administration of the First-Time Homebuyer Credit
                          Indicates a Need for Improved Controls
                                   Over Refundable Credits



appears that the primary taxpayer had previously claimed the spouse as a dependent, then later
married and purchased a home together.
In addition, we did not consider the 27 claims as exceptions because the purchase occurred prior
to November 2009, when the legislation denying purchases from taxpayers related by marriage
was enacted.
We further analyzed the 241 claims of taxpayers whose new home address was the address of a
taxpayer who had previously claimed the claimant as a dependent to determine whether they
were related. We found 197 of the 241 claims were based on homes purchased from an ancestor
or lineal descendent and further found that 156 of the 197 claims resulted in refunds. We
researched the 156 claims and determined that 151 (97 percent) claims did not have any IRS
compliance activity before or after the refund.
We conducted additional research on the 151 cases using Accurint1 to obtain supplementary
information on these cases and to further determine the legitimacy of these claims. Based on our
research, we found the following:
    •    39 appear to be related person purchases.
    •    19 are questionable but only because the taxpayers and their “parents” are
         co-owners of the new residences.
    •    60 appear not to have purchased a home at all.
         o 33 appear to still be living in their parents’ house.
         o 27 appear to be living away from home at different residences that they do not own.
    •    33 appear to have made legitimate home purchases.
Based on our statistical sample of 375 returns, we estimate that for Tax Year 2008,
3,745 taxpayers received refunds totaling more than $24.8 million in Homebuyer Credits despite
indications the taxpayer either purchased their home from a related party or had not actually
made a qualifying home purchase. As noted earlier, this may be a larger problem than these
numbers indicate.




1
 A database maintained by LexisNexis that provides, in part, third-party data listing real estate and property
ownership records.
                                                                                                             Page 36
    Administration of the First-Time Homebuyer Credit
        Indicates a Need for Improved Controls
                 Over Refundable Credits



                                                    Appendix VI

Management’s Response to the Draft Report




                                                         Page 37
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 38
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 39
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 40
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 41
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 42
Administration of the First-Time Homebuyer Credit
    Indicates a Need for Improved Controls
             Over Refundable Credits




                                                    Page 43
